WAIVER

Supreme Court of the United States

No. 19-193
Rodney Hogen, et al. ve Steven C. Hogen
(Petitioners) « (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.

Please check the appropriate boxes:
& Please enter my appearance as Counsel of Record for all respondents.

0 There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

 

 

‘gy Tama member of the Bar of the Supreme Court of the United States.

Iam not presently a member of the Bar of this Court. Should a response be requested,
the response will be filed by}a Bar member.

 

 

 

 

 

 

Signature OI @ the
Date: Auger 22 Zot
(Type or print) Name. R oReet G. ibe
ir. OMs, 0 Mrs. O Miss
Firm Obhusied “Tesietell pc,
Address 0.8. Box 458
City & States (ost Fa&as o NBS Zip 80718-0458

Phone St 1O2-3244

SEND A COPY OF THIS FORM TO PETITIONER’S COUNSEL OR TO PETITIONERS IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

Ce: David Alan Garaas
Jonathan T. Garaas
Garaas Law Firm
1314 - 23rd Street South
Fargo, ND 58103

Obtain status of case on the docket. By phone at 202-479-3034 or via the internet at
http://www.supremecourtus.gov. Have the Supreme Court docket number available.
